CAPITAL CASE
App. No. ___
________________________________

In the Supreme Court of the United States
________________________________
CRAIG M. WOOD,
Petitioner,
v.
STATE OF MISSOURI
Respondent.
________________________________
APPLICATION TO EXTEND TIME TO FILE PETITION FOR A WRIT OF
CERTIORARI FROM DECEMBER 2, 2019 TO JANUARY 3, 2020
________________________________
To the Honorable Justice Gorsuch:
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30,
petitioner Craig M. Wood respectfully requests that the time to file a petition for a
writ of certiorari in this case be extended for 32 days to and including January 3,
2020. The Supreme Court of Missouri rendered its opinion on July 16, 2019. See App.
A, infra. It denied a timely motion for rehearing on September 3, 2019. See App. B,
infra. Absent an extension of time, the petition would be due on December 2, 2019.
Petitioner is filing this application more than ten days before that date. See Sup. Ct.
R. 13.5. This Court has jurisdiction under 28 U.S.C. § 1257 to review this case.
BACKGROUND
This case presents an important question about the right to a unanimous jury
verdict at the penalty phase of a capital case. Missouri employs an unusual
sentencing scheme that permits a judge to impose the penalty of death if a jury

deadlocks on the issue of punishment. As relevant here, Missouri’s statute provides
that at the sentencing phase in a capital case, the trier of fact shall declare the
punishment as life without the possibility of parole (and not death):
(1) If the trier finds by a preponderance of the evidence that the defendant is
intellectually disabled; or
(2) If the trier does not find beyond a reasonable doubt at least one of the
statutory aggravating circumstances set out in subsection 2 of section 565.032;
or
(3) If the trier concludes that there is evidence in mitigation of punishment,
including but not limited to evidence supporting the statutory mitigating
circumstances listed in subsection 3 of section 565.032, which is sufficient to
outweigh the evidence in aggravation of punishment found by the trier; or
(4) If the trier decides under all of the circumstances not to assess and declare
the punishment at death. If the trier is a jury it shall be so instructed.
If the trier assesses and declares the punishment at death it shall, in its
findings or verdict, set out in writing the aggravating circumstance or
circumstances listed in subsection 2 of section 565.032 which it found beyond
a reasonable doubt. If the trier is a jury it shall be instructed before the case is
submitted that if it is unable to decide or agree upon the punishment the court
shall assess and declare the punishment at life imprisonment without
eligibility for probation, parole, or release except by act of the governor or
death. The court shall follow the same procedure as set out in this section
whenever it is required to determine punishment for murder in the first
degree.
Mo. Ann. Stat. § 565.030(4). The key language provides that if the jury “is unable to
decide or agree upon the punishment,” then the task of choosing either death or life
without parole falls to the court, which “shall follow the same procedure” as the jury.
Ibid.
In this case, after petitioner was convicted of first-degree murder, the jury
found that aggravating circumstances were present. It also stated it did not
unanimously find that the mitigating evidence outweighed the aggravating evidence.
2

However, the jury deadlocked as to whether to impose the death penalty. Under the
statutory scheme, the question was thus taken away from the jury and given to the
trial judge. The trial judge addressed the matter orally (see App. C, infra), and
likewise determined that aggravating circumstances were present, and further
determined that the mitigating evidence did not outweigh the aggravating
circumstances and declined to exercise mercy, sentencing petitioner to death. In
making this decision, the trial court stated that it “does accept and agree[] with the
factual findings of the jury . . . Specifically, this Court finds beyond a reasonable doubt
the State did prove six statutory aggravating circumstances.” App. C at 4166. The
court then “further [found] the facts and circumstances in mitigation of punishment
were not sufficient to outweigh facts and circumstances in aggravation of
punishment.” Ibid. The court then determined that it was “required to consider both
life imprisonment, without the possibility of probation or parole, and death as
possible punishments for the defendant.” Id. at 4166-67. The court found, “after
considering the totality of the evidence presented in both the guilt and penalty phases
of the trial, the factual findings of the jury, and following the procedures set out in
the Missouri statute,” that a sentence of death was warranted because, in the court’s
view, this was “an extreme case.” Id. at 4167-68.
Petitioner had challenged the constitutionality of Missouri’s procedure in pretrial and post-trial motions. Specifically, petitioner argued that by permitting the
judge to impose a sentence of death when the jury could not agree on one, Missouri’s
statute rendered the jury’s verdict effectively advisory. Petitioner argued that this

3

violated both the Sixth Amendment right to have punishment determined by a jury,
and the Eighth Amendment right to be free from cruel and unusual punishment
because Missouri’s approach is an outlier from a consensus requiring unanimous jury
findings to support a death sentence. Petitioner also argued that Missouri’s
aggravating circumstances do not provide sufficient guidance to courts to narrow the
category of death-eligible inmates, as required by the Eighth Amendment. Petitioner
raised these arguments, together with other evidentiary issues, in an appeal to the
Supreme Court of Missouri.
The state supreme court affirmed the sentence of death. The court held that
the Constitution only requires the jury (as opposed to the judge) to find the presence
of aggravating circumstances. Once the jury makes that finding, the court held, the
judge can impose the sentence of death. Specifically, the court held that “[a]fter the
jury found the existence of multiple aggravating circumstances beyond a reasonable
doubt, the determination of whether [petitioner’s] personal circumstances mitigated
the brutality of his crime was a discretionary judgment call that neither the state nor
federal constitution entrusts exclusively to the jury.” App. A at 28. The court noted,
in a footnote at the end of that holding, that two state supreme courts—in Delaware
and Florida—had concluded otherwise. See id. at 28 n.12 (citing Rauf v. State, 145
A.3d 430 (Del. 2016) (en banc) (per curiam), and Hurst v. State, 202 So. 3d 40 (Fla.
2016) (per curiam)). But the Missouri court split with that authority, stating
definitively that “[t]hese cases are not binding, and both are wrongly decided.” Ibid.
The court also rejected petitioner’s Eighth Amendment arguments.

4

The Supreme Court of Missouri denied a timely petition for rehearing on
September 3, 2019. See App. B.
REASONS FOR GRANTING AN EXTENSION OF TIME
The time to file a petition for a writ of certiorari should be extended for 32 days,
to January 3, for several reasons.
First, petitioner only recently (last week) retained undersigned counsel for the
filing of a petition for a writ of certiorari before this Court. This case involves at least
three potential questions under the federal Constitution. Additional time is necessary
for counsel to review the record in the case as well as the decisions of other state
courts of last resort in order to prepare a clear and concise petition for the Court’s
review.
Second, no prejudice would result from the extension. Whether the deadline to
file the petition is extended or not, the petition will be ruled upon this Term and, if
the petition is granted, the case would almost certainly be argued next Term.
Third, the petition is likely to be granted. At a minimum, the Sixth
Amendment question in this case squarely implicates a conflict among state courts of
last resort about capital defendants’ right to have the factual issues underlying their
sentences determined by a jury.

5

CONCLUSION
For the foregoing reasons, the time to file a petition for a writ of certiorari
should be extended for 32 days to and including January 3, 2020.
Respectfully submitted,

Rosemary E. Percival
Missouri State Public Defender
920 Main Street, Suite 500
Kansas City, MO 64105

Tejinder Singh
Counsel of Record
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tsingh@goldsteinrussell.com

Dated: November 19, 2019

6

